          NATIONAL 

          ARCHIVES 

         OFFICE of 

    INSPECTOR GENERAL 



    Date: 	      December 10,2012

    Reply to
    Attn of: 	   Office of Inspector General (OIG)

    Subject: 	   Final Report No. 13-05: Cotton & Company's NARA FY 2012 

                 Financial Statements Independent Audit Report 


   To:   DavidS. Ferriera, Archivist ofthe United States


   Enclosed are the reports prepared by Cotton & Company, LLP (C&C) for the subject audit. C&C
   issued an unqualified opinion on NARA's FY 2012 financial statements.

   C&C reported no material weaknesses in internal control over financial reporting. C&C disclosed
   no significant deficiencies and no instances of noncompliance with certain provisions of laws and
   regulations.

   In connection with the contract, we reviewed C&C's report and related documentation and inquired
   of its representatives. Our review, as differentiated from an audit in accordance with U.S. Generally
   Accepted Government Auditing Standards (GAGAS) was not intended to enable us to express, as we
   do not express, an opinion on NARA' s financial statements or conclusions about the effectiveness of
   internal control or on whether NARA's financial management system substantially complied with
   the Federal Financial Management Improvement Act of 1996, or conclusions on compliance with
   laws and regulations. C&C is responsible for the attached auditor's report dated November 14, 2012
   and the conclusions expressed in the report. However, our review disclosed no instances where
   C&C did not comply, in all material respects, with GAGAS.

   As with all OIG products, we will determine what information is publically posted on our website
   from the attached report. Should you or management have any redaction suggestions based on FOIA
   exemptions, please submit them to my counsel within one week from the date of this letter. Should
   we receive no response from you or management by this timeframe, we will interpret that as
   confirmation NARA does not' desire any redactions to the posted report.




  NATIONAL ARCHIVES       and
 RECORDS ADMINISTRATION

8601 ADELPHI ROAD, ROOM 1300
COLLEGE PARK. 1\.1D 20740-6001
We appreciate the cooperation and assistance NARA extended to C&C and my staff during the
audit. If you have any questions, please contact me on (301) 837-3000.


j/#rrG7/
James Springs
Acting Inspector General


Enclosure: Final Report No. 13-05: Cotton & Company's NARA FY 2012 Financial Statements
Independent Audit Reports
The Inspector General
National Archives and Records Administration

                                      INDEPENDENT AUDITOR’S REPORT

We have audited the accompanying consolidated Balance Sheets of the National Archives and Records
Administration (NARA) as of September 30, 2012 and 2011, and the related Statements of Net Cost,
Changes in Net Position, and Budgetary Resources for the years then ended. These financial statements
are the responsibility of NARA management. Our responsibility is to express an opinion on the financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) audit guidance. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of NARA as of September 30, 2012 and 2011, and its net cost, changes in net position,
and budgetary resources for the years then ended, in conformity with accounting principles generally
accepted in the United States of America.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary
information required by accounting principles generally accepted in the United States of America. We
did not audit this information and, accordingly, we express no opinion on it. However, we compared this
information for consistency with the financial statements and discussed the methods of measurement
and presentation with NARA officials. On the basis of this limited work, we found no material
inconsistencies between the financial statements and U.S. generally accepted accounting principles or
OMB financial reporting requirements.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial
statements taken as a whole. The information in the Message from the Chief Financial Officer,
Performance Section, and Other Accompanying Information is presented for purposes of additional
analysis and is not required as part of the consolidated financial statements. This information has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.

                                                    1

In accordance with Government Auditing Standards, we are also issuing two other reports dated
November 14, 2012. The first report is on our consideration of NARA’s internal control over financial
reporting and over compliance with laws and regulations. The second report is on our tests of NARA’s
compliance with certain provisions of laws and regulations. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction with
this report in assessing the results of our audit.

COTTON & COMPANY LLP




Colette Y. Wilson
Partner

Alexandria, Virginia
November 14, 2012




                                                    2

The Inspector General
National Archives and Records Administration

                    INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE AND OTHER MATTERS

We have audited the financial statements of the National Archives and Records Administration (NARA)
as of September 30, 2012 and 2011, and have issued our report thereon dated November 14, 2012. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
audit guidance.

NARA management is responsible for complying with laws and regulations applicable to NARA. As part
of obtaining reasonable assurance about whether NARA’s financial statements are free of material
misstatements, we performed tests of NARA’s compliance with certain provisions of laws and
regulations that have a direct and material effect on the financial statements. We did not test
compliance with all laws and regulations applicable to NARA. We limited our tests of compliance to
those provisions of laws and regulations that OMB audit guidance requires that we test that we deemed
applicable to the financial statements for the fiscal year ended September 30, 2012. We caution that
noncompliance may have occurred and may not have been detected by these tests, and that such
testing may not be sufficient for other purposes.

Our tests of compliance with laws and regulations described in the preceding paragraph disclosed no
instances of material noncompliance that are required to be reported under Government Auditing
Standards and OMB audit guidance.

Providing an opinion on compliance with certain provisions of laws and regulations was not an objective
of our audit; accordingly, we do not express such an opinion.

In accordance with Government Auditing Standards, we are also issuing two other reports dated
November 14, 2012. The first report is on our audit of NARA’s financial statements. The second report is
on NARA’s internal control over financial reporting and over compliance with laws and regulations.
Those reports are an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in assessing the results of our audit.

This report is intended solely for the information and use of NARA management, NARA Office of
Inspector General, the Government Accountability Office, OMB, the Congress of the United States, and
those who have read NARA’s financial statements, our report on those financial statements, and our

                                                   1

report on internal control. This report is not intended to be and should not be used by anyone other
than those parties.

COTTON & COMPANY LLP




Colette Y. Wilson
Partner

Alexandria, Virginia
November 14, 2012




                                                   2

The Inspector General
National Archives and Records Administration

                           INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

We have audited the consolidated financial statements of the National Archives and Records
Administration (NARA) as of September 30, 2012 and 2011, and have issued our report thereon dated
November 14, 2012. That report contained our unqualified opinion on the financial statements for fiscal
year (FY) 2012 and FY 2011. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) audit guidance.

NARA management is responsible for establishing, maintaining, and assessing internal control to provide
reasonable assurance that the broad control objectives of the Federal Managers’ Financial Integrity Act
are met. The objectives of internal control are as follows:

    •	 Financial reporting: Transactions are properly recorded, processed, and summarized to permit
       the preparation of financial statements in conformity with U.S. generally accepted accounting
       principles, and assets are safeguarded against loss from unauthorized acquisition, use, or
       disposition.
    •	 Compliance with laws and regulations: Transactions are executed in accordance with (1) laws
       governing the use of budget authority, (2) other laws and regulations that could have a direct
       and material effect on the financial statements, and (3) any other laws, regulations, and
       government-wide policies identified by OMB audit guidance.

In planning and performing our audits, we considered NARA’s internal control over financial reporting
and over compliance with laws and regulations. We did this as a basis for designing our procedures for
auditing the financial statements and not to express an opinion on internal control. Accordingly, we do
not express an opinion on internal control over financial reporting and over compliance with laws and
regulations.

Our consideration of internal control was for the limited purpose described in the previous paragraph.
Thus, it was not designed to identify all deficiencies in internal control that might be deficiencies,
significant deficiencies, or material weaknesses; therefore, there can be no assurance that all
deficiencies, significant deficiencies, or material weaknesses have been identified.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination
                                                   1

of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of an entity's financial statements will not be prevented, or detected and corrected on a
timely basis. We did not identify any deficiencies in internal control that we consider to be material
weaknesses.

We noted certain deficiencies in internal control that will be reported to NARA management in a
separate letter.

In commenting on a draft of this report (see Appendix A), NARA concurred with the facts and
conclusions in our report. We did not audit NARA’s response; accordingly, we express no opinion on it.

STATUS OF PRIOR-YEAR RECOMMENDATIONS

We reviewed the status of NARA’s corrective actions with respect to the material weakness from the
prior-year report on internal control. Appendix B to this report provides details of the status of
recommendations.

Because of inherent limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may become inadequate because of
changes in conditions or that the degree of compliance with controls may deteriorate.

In accordance with Government Auditing Standards, we are also issuing two other reports dated
November 14, 2012. The first report is on our audit of NARA’s financial statements. The second report is
on our tests of NARA’s compliance with certain provisions of laws and regulations. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards and should be
read in conjunction with this report in assessing the results of our audit.

This report is intended solely for the information and use of NARA management, NARA Office of
Inspector General, the Government Accountability Office, OMB, the Congress of the United States, and
those who have read NARA’s financial statements, our report on those financial statements, and our
report on compliance with laws and regulations. This report is not intended to be and should not be
used by anyone other than those parties.

COTTON & COMPANY LLP




Colette Y. Wilson, CPA
Partner

Alexandria, Virginia
November 14, 2012




                                                    2

     APPENDIX A

MANAGEMENT COMMENTS

      NATIONAL
     ARCHIVES
     ARCHIVIST ,•frl"
     UNITED STATES
     DAVIDS. ~fRRitRO
        T    202 357.5900
        F·   202.JS7.5'l0 I




        14 November 2012                                    ,

        To:      James Springs, Acting Inspector General
        From:    DavidS. Ferriero, Archivist of the United Stat
        Subject: Management Response to the FY 2012 Financial Statement Audit

        Thank you for the opportunity to respond to your reports, Independent Auditor's
        Reoort on Internal Control and Indeoendent Auditor's Report on Comoliance with
        Laws and Regulations.

        I am pleased to have received an unqualified opinion for NARA's FY 2012 financial
        statements. I appreciate that the independent auditor has recognized our progress in
        improving financial management at NARA by removing last year's material weakness
        over financial reporting.

        I would like to thank the Office of Inspector General and the Cotton & Company,
        LLP for their cooperation and efforts to ensure a smooth and efficient audit.




 NATIONAl ARCHIVE~            •111,1
 RECORDS     ADMI"\I~TRATION

700 rf,\JS\IVAN A AVrNtJ[. N\V
WA~'11\JG!ON       DC 20Hl8-tl00
                 APPENDIX B

NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

   STATUS OF PRIOR-YEAR RECOMMENDATIONS

             SEPTEMBER 30, 2012

                                              APPENDIX B

                             NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                                STATUS OF PRIOR-YEAR RECOMMENDATIONS

                                          SEPTEMBER 30, 2012


 We present below the status of recommendations from our prior-year report on internal control over
 financial reporting and compliance with laws and regulations. In our FY 2011 report, we noted a material
 weakness related to the review of manual journal entries. NARA has taken corrective actions and our
 finding and recommendations have been closed.

Condition and Recommendation	                                     Status as of September 30, 2012
Review of Manual Journal Entries
We recommend that:	                                                            Closed
1.	 BCF develop, document, and implement procedures
    that require the review and approval of all manual
    journal entries prepared and submitted during and
    after the normal adjustment period. In addition,
    management should communicate these procedures
    to all involved in the process.
2.	 BCR, as well as other offices, thoroughly review the                       Closed
    methodologies and supporting documentation for all
    journal entries approved and submitted for financial
    reporting throughout the year (as required by current
    procedures).
